No. ____________
IN THE

MARLON DARREL EVANS,

Petitioner,
v.
AMY MILLER, WARDEN,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, MICHAEL PARENTE, a Deputy Federal Public Defender in the Office of
the Federal Public Defender who was appointed as counsel for Petitioner under the
Criminal Justice Act, 18 U.S.C. § 3006(A)(b), do swear or declare that on this date,
September 1, 2021, as required by Supreme Court Rules 22 and 29.3 that I have
served the enclosed a copy of Petitioner’s Motion for Leave to Proceed In
Forma Pauperis; Petition for Writ of Certiorari; and Appendix was mailed
postage prepaid to:
//
//

The names and addresses of those served are as follows:
Kim Aarons
Deputy Attorney General
Office of the California Attorney General
300 South Spring St.
Los Angeles, CA 90013

I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct.
Executed on September 1, 2021.

mf)_J
MICHAEL PARENTE*
SAIVANDANA PETERSON
Deputy Federal Public Defenders
Attorneys for Petitioner
*Counsel of Record

